TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Preaward Survey of Prospective Contractor’s
                           Accounting System



                                         September 2005

                             Reference Number: 2005-1C-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 15, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE



 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Preaward Survey of Prospective Contractor’s Accounting System
                                 (Audit # 20051C0228)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s accounting system to
 determine whether the design of the system is acceptable for the award of a prospective contract
 in accordance with the criteria set forth in the Federal Acquisition Regulation (FAR) 53.1 The
 DCAA examination was performed from May 5, 2005, through May 9, 2005.
 The DCAA stated the contractor’s design of the accounting system in all material respects is
 considered acceptable for award of a prospective contract in accordance with the criteria
 contained in FAR 53. The DCAA also stated the accounting system is in operation. The DCAA
 did not perform a comprehensive examination of the contractor’s overall accounting system and
 its related internal controls. Accordingly, the DCAA expresses no opinion on the contractor’s
 system of internal control taken as a whole.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.




 1
     48 C.F.R. pt 1-53 (2002).
              Preaward Survey of Prospective Contractor’s Accounting System




If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.



Attachment




                                                                                                 2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
